Nos. 19-267 & 19-348

In the Supreme Court of the United States
___________________

OUR LADY OF GUADALUPE SCHOOL,
v.

Petitioner,

AGNES MORRISSEY-BERRU,
___________________

Respondent.

ST. JAMES SCHOOL,
Petitioner,

v.
DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF
THE ESTATE OF KRISTEN BIEL,
Respondent.
___________________

On Writs of Certiorari to the
United States Court of Appeals for the Ninth Circuit
___________________

BRIEF FOR THE CHURCH OF JESUS CHRIST OF LATTERDAY SAINTS; THE GENERAL COUNCIL ON FINANCE AND
ADMINISTRATION OF THE UNITED METHODIST CHURCH;
INTERNATIONAL CHURCH OF THE FOURSQUARE GOSPEL;
THE MORAVIAN CHURCH IN AMERICA; AND
THE ORTHODOX CHURCH IN AMERICA AS
AMICI CURIAE SUPPORTING PETITIONERS
___________________

ALEXANDER DUSHKU
R. SHAWN GUNNARSON
Counsel of Record
JAMES C. PHILLIPS
KIRTON | MCCONKIE
36 South State Street
Suite 1900
Salt Lake City, Utah 84111
(801) 328-3600
sgunnarson@kmclaw.com

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS.............................................. i
TABLE OF AUTHORITIES ..................................... iii
INTERESTS OF AMICI CURIAE ............................. 1
SUMMARY OF ARGUMENT .................................... 1
ARGUMENT ............................................................... 4
I. The Court should adopt an appropriate
standard for the ministerial exception ............ 4
A. Hosanna-Tabor establishes that the
First Amendment protects a religious
organization’s control over religious
officers and functionaries ........................... 4
B. Hosanna-Tabor left open the issue of
what standard should control the
ministerial exception .................................. 7
II. An appropriate standard for the ministerial exception should cover employees
whose work seriously affects a religious
organization’s religious mission ...................... 9
A. An appropriate standard must avoid
religious discrimination by steering
away from an undue emphasis on religious titles, training, and status .............. 9
B. A religious organization would lose its
constitutional autonomy unless it can
decide who will perform important religious functions ........................................ 13

ii
C. A religious organization would lose its
constitutional autonomy unless it can
decide who will perform functions
that are important to its religious mission ............................................................ 18
III. We propose a broad and simple standard
for the ministerial exception.......................... 28
CONCLUSION ......................................................... 31

iii
TABLE OF AUTHORITIES

Page(s)

Cases
Alicea-Hernandez v. Catholic Bishop of Chi.,
320 F.3d 698 (7th Cir. 2003) ............................... 25
Archdiocese of Wash. v. Moersen,
925 A.2d 659 (Md. 2007) ..................................... 17
Cannata v. Catholic Diocese of Austin,
700 F.3d 169 (5th Cir. 2012) ......................... 17, 26
City of Arlington, Tex. v. FCC,
569 U.S. 290 (2013) ............................................... 8
City of Boerne v. Flores,
521 U.S. 507 (1997) ............................................. 20
Collette v. Archdiocese of Chi.,
200 F. Supp. 3d 730 (N.D. Ill. 2016) ................... 17
Conlon v. InterVarsity Christian Fellowship,
777 F.3d 829 (6th Cir. 2015) .......................... 14-15
Corp. of the Presiding Bishop of The Church of
Jesus Christ of Latter-day Saints v. Amos,
483 U.S. 327 (1987) ............................................. 24
Duquesne Univ. of the Holy Spirit v. NLRB,
No. 18-1063, 2020 WL 425053
(D.C. Cir. Jan. 28, 2020) ...................................... 23
EEOC v. Roman Catholic Diocese of
Raleigh, N.C.,
213 F.3d 795 (4th Cir. 2000) .............................. 17
Emp’t Div., Dep’t of Human Res. of Or. v.
Smith,
494 U.S. 872 (1990) ............................................. 29
Fratello v. Archdiocese of N.Y.,
863 F.3d 190 (2d Cir. 2017) ............................ 12-13

iv
Free Enter. Fund v. Pub. Co. Accounting
Oversight Bd.,
561 U.S. 477 (2010) ............................................... 6
Gideon v. Wainwright,
372 U.S. 335 (1963) ............................................... 2
Grussgott v. Milwaukee Jewish Day School, Inc.,
882 F.3d 655 (7th Cir. 2018) ............................... 15
Hosanna-Tabor Evangelical Lutheran Church
& School v. EEOC,
565 U.S. 171 (2012) ..................................... passim
Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am.,
344 U.S. 94 (1952) ............................................. 5, 6
Kirby v. Lexington Theological Seminary,
426 S.W.3d 597 (Ky. 2014) .................................. 17
Kolstad v. Am. Dental Ass’n,
527 U.S. 526 (1999) ............................................... 9
Larson v. Valente,
456 U.S. 228 (1982) ......................................... 9, 18
Lee v. Sixth Mount Zion Baptist Church
of Pittsburgh,
903 F.3d 113 (3d Cir. 2018) ................................. 14
NLRB v. Catholic Bishop of Chi.,
440 U.S. 490 (1979) ............................. 4, 22, 23, 24
Patsakis v. Greek Orthodox Archdiocese of Am.,
339 F. Supp. 2d 689 (W.D. Pa. 2004) .................. 19
Penn v. N.Y. Methodist Hosp.,
884 F.3d 416 (2d Cir. 2018) ............................ 16-17
Puri v. Khalsa, 844 F.3d 1152,
1159 (9th Cir. 2017)....................................... 26, 27

v
Sterlinski v. Catholic Bishop of Chi.,
934 F.3d 568 (7th Cir. 2019) ............................... 17
Temple Emanuel of Newton v. Massachusetts
Commission Against Discrimination,
975 N.E.2d 433 (Mass. 2012) .............................. 15
Thomas v. Review Bd. of the Ind. Emp’t
Sec. Div.,
450 U.S. 707 (1981) ............................................. 30
Universidad Central de Bayamon v. NLRB,
793 F.2d 383 (1st Cir. 1985) ................................ 23
W. Va. State Bd. of Educ. v. Barnette,
319 U.S. 624 (1943) ............................................... 2
Watson v. Jones,
80 U.S. (13 Wall.) 679 (1871) ............................ 4-5
Constitution, statutes, and regulations
U.S. Const., amend. I ........................................ passim
42 U.S.C. § 2000e–1(a) ............................................. 23
Miscellaneous
Mark DeWolfe Howe, The Garden and the Wilderness (1965) ........................................................ 5
Records of the American Catholic Historical
Society (1909) ....................................................... 20

INTERESTS OF AMICI CURIAE1
Amici are churches and other religious organizations with a shared commitment to religious freedom
under the Constitution. Like other religious organizations, we have a profound interest in the constitutional
right to govern our internal affairs by deciding who
will serve in key employment positions. Some amici
appeared in Hosanna-Tabor, where the Court unanimously embraced the ministerial exception. This brief
seeks to assist the Court by proposing and explaining
a judicial standard for the ministerial exception that
incorporates the petitioners’ standard along with other
relevant considerations. Our aim is to fully secure the
religious autonomy guaranteed to religious organizations by the First Amendment.
SUMMARY OF ARGUMENT
The ministerial exception bars courts from adjudicating an employment discrimination claim by a
minister against a religious organization. This rule
safeguards the organization’s right to freely exercise
its religion through its appointments and respects the
structural barrier posed by the Establishment Clause,
which places disputes over religious appointments beyond civil control. In both ways, the ministerial

Pursuant to Supreme Court Rule 37.3(a), amici state that all
parties have submitted their written consent to filing this brief.
Pursuant to Supreme Court Rule 37.6, amici state that no counsel
for any party authored this brief in whole or in part and that no
entity or person, aside from amici, their members, and their counsel, made any monetary contribution toward the preparation or
submission of this brief.
1

2
exception protects the freedom of religious organizations to govern themselves.
The ministerial exception received this Court’s
unanimous endorsement in Hosanna-Tabor Evangelical Lutheran Church & School v. EEOC, 565 U.S. 171
(2012). There, the exception precluded a disability discrimination suit by a teacher against a religious
school. See id. at 194. Her title of “commissioned minister,” her special training, her status in the religious
community, and her religious job duties required dismissing her case. See id. at 191–92.
Apart from explaining why these facts justified dismissal, Hosanna-Tabor did not adopt a hard-and-fast
legal standard identifying when the ministerial exception applies. See id. at 190. In the decisions below, the
Ninth Circuit declined to apply the ministerial exception because, it reasoned, the facts did not fit the
factual record of Hosanna-Tabor precisely.
Confining Hosanna-Tabor to its facts is wrong.
Leading constitutional decisions stand for broad principles of law, not fact-bound holdings. Otherwise, the
freedom from compelled speech would belong only to
schoolchildren who refuse to pledge allegiance to the
flag, W. Va. State Bd. of Educ. v. Barnette, 319 U.S.
624 (1943), and the right to counsel would belong only
to prisoners convicted of breaking and entering a pool
hall, Gideon v. Wainwright, 372 U.S. 335 (1963).
The Ninth Circuit’s fact-bound approach illustrates
the risks of adjudicating cases invoking the ministerial
exception without a meaningful legal standard. Lower
courts trying to determine when the ministerial exception applies will flounder. With such uncertainty, the
exception will not reliably secure religious autonomy.

3
An appropriate standard for the ministerial exception should protect religious organizations with
respect to two categories of employees that are necessary for a religious organization to govern its internal
affairs and pursue its religious mission.
First, an appropriate standard would apply the
ministerial exception to employees who perform important religious functions. Employees who lead a
religious organization; convey religious beliefs and
practices in the classroom or create religious curricula; lead community prayer, conduct worship services,
and perform religious rites and ceremonies; or lead
and perform music during religious events—all these
employees come squarely within the ministerial exception. Preventing a religious organization from
selecting employees who perform these tasks—or second-guessing the organization for removing such an
employee—interferes with a religious organization’s
internal governance and entangles courts in religious
judgments.
Second, an appropriate standard should apply the
ministerial exception to employees whose substantial
discretion or senior leadership role makes them important for a religious organization’s religious mission.
Extending the ministerial exception to such employees
is necessary to preserve religious autonomy. When an
employee carries out responsibilities that seriously affect the organization’s religious mission, the
ministerial exception should apply. Otherwise a civil
court could force a church to justify the termination
of—and even reinstate—a church spokesperson that
the church deemed inadequate to represent it publicly.
From these principles, we distill the following
standard:

4
The ministerial exception applies when a religious organization demonstrates that its religious
autonomy depends on controlling the selection,
discipline, or removal of (1) an employee who performs important religious functions or (2) an
employee whose substantial discretion or senior
leadership role makes the employee important for
carrying out the organization’s religious mission.
This brief explains why a legal standard is necessary and defends the standard we propose.
ARGUMENT
I. The Court should adopt an appropriate standard for the ministerial exception.
A. Hosanna-Tabor establishes that the First
Amendment protects a religious organization’s control over religious officers and
functionaries.
The ministerial exception protects religious employers from claims brought by former employees.
“Both Religion Clauses bar the government from interfering with the decision of a religious group to fire one
of its ministers.” Hosanna-Tabor, 565 U.S. at 181. Imposing an “unwanted minister” violates the Free
Exercise Clause by interfering with “a religious
group’s right to shape its own faith and mission
through its appointments.” Id. at 188. The same interference violates the Establishment Clause, “which
prohibits government involvement in such ecclesiastical decisions.” Id. at 189; see also NLRB v. Catholic
Bishop of Chi., 440 U.S. 490, 502 (1979) (the “very process of inquiry” “may impinge on rights guaranteed by
the Religions Clauses”); Watson v. Jones, 80 U.S. (13

5
Wall.) 679, 732–34 (1871) (civil courts are “incompetent judges” in “matters of faith, discipline, and
doctrine”).
The ministerial exception thus secures religious
autonomy. This is the First Amendment doctrine that
religious organizations possess “an independence from
secular control or manipulation—in short, power to decide for themselves, free from state interference,
matters of church government as well as those of faith
and doctrine.” Hosanna-Tabor, 565 U.S. at 186 (quoting Kedroff v. St. Nicholas Cathedral of Russian
Orthodox Church in N. Am., 344 U.S. 94, 116 (1952));
see also id. at 199 (Alito, J., concurring) (the ministerial exception safeguards “a private sphere within
which religious bodies are free to govern themselves in
accordance with their own beliefs”). Petitioners rightly
point out that legal autonomy for religious organizations “trace[s] [its] roots back over 140 years of
Supreme Court precedent, and before that to Magna
Carta.” Guadalupe Pet. 16–17 (citation omitted). This
well-established line of decisions repeatedly affirms
that “religious liberty has little substance if those who
join together in churches [and other religious organizations] are not free to manage their ecclesiastical
affairs as they choose.” Mark DeWolfe Howe, The Garden and the Wilderness 86 (1965).
Because the ministerial exception operates as a security for religious autonomy, the costs of
misinterpretation or misapplication are high. “Requiring a church to accept or retain an unwanted minister,
or punishing a church for failing to do so * * * interferes with the internal governance of the church,
depriving the church of control over the selection of
those who will personify its beliefs.” Hosanna-Tabor,
565 U.S. at 188. Preserving that autonomy means that

6
“religious authorities must be free to determine who is
qualified to serve in positions of substantial religious
importance.” Id. at 200 (Alito, J., concurring). To that
end, the ministerial exception vests a religious organization with control over the selection, discipline, and
removal of religiously important employees.
Government action that interferes with a religious
organization’s “internal governance” is no small matter. Id. at 188 (majority opinion). History records that
it took centuries of struggle effectively to divide the
powers of church and state. See id. at 182–83; see also
Kedroff, 344 U.S. at 124–25 (“The long, unedifying history of the contest between the secular state and the
church is replete with instances of attempts by civil
government to exert pressure upon religious authority.”). The Constitution firmly maintains that division
of power today. “The Establishment Clause prevents
the Government from appointing ministers, and the
Free Exercise Clause prevents it from interfering with
the freedom of religious groups to select their own.”
Hosanna-Tabor, 565 U.S. at 184.
Behind the ministerial exception is the familiar
principle that control over the person who occupies an
office constitutes control over what that office does. Cf.
Free Enter. Fund v. Pub. Co. Accounting Oversight Bd.,
561 U.S. 477, 483, 493 (2010) (Article II “empower[s]
the President to keep [executive] officers accountable,”
including “by removing them from office”). Much as the
President controls the work of the executive branch by
selecting, disciplining, or removing executive officers,
a religious organization exercises those same powers
to ensure that it controls “who will personify its beliefs” and “guide it on its way.” Hosanna-Tabor, 565
U.S. at 188, 196.

7
B. Hosanna-Tabor left open the issue of what
standard should control the ministerial
exception.
Hosanna-Tabor concluded that “the [ministerial]
exception cover[ed Cheryl] Perich, given all the circumstances of her employment.” Id. at 190. Several
facts supported that decision. Perich worked for and
received the title of “Minister of Religion, Commissioned.” Id. at 177. “Perich’s title as a minister
reflected a significant degree of religious training followed by a formal process of commissioning.” Id. at
191. Her employer, a Lutheran school, “held Perich out
as a minister.” Ibid. Also, “Perich held herself out as a
minister of the Church by accepting the formal call to
religious service.” Ibid. And her job “reflected a role in
conveying the Church’s message and carrying out its
mission.” Id. at 192. Together, these facts supported
the conclusion that “Perich was a minister covered by
the ministerial exception.” Ibid.
But Hosanna-Tabor declined to lay down “a rigid
formula for deciding when an employee qualifies as a
minister.” Id. at 190. This “reluctan[ce]” reflected a
suitable modesty in responding to the Court’s “first
case involving the ministerial exception.” Ibid. Eight
years later, however, a more durable approach is
needed. Fact-bound determinations and confusion in
the lower courts will not reliably secure the religious
autonomy guaranteed by the First Amendment.
The Ninth Circuit’s reasoning in these cases illustrates the risks. In the decisions below, the court of
appeals interpreted Hosanna-Tabor as commanding a
“totality-of-the-circumstances test.” Biel App. 23a; accord Guadalupe App. 2a (same). This is “really, of
course, not a test at all but an invitation to make an

8
ad hoc judgment.” City of Arlington, Tex. v. FCC, 569
U.S. 290, 307 (2013). Taking up that invitation, the
Ninth Circuit declined to apply the ministerial exception. In Biel v. St. James School, the court reasoned
that departures from the facts in Hosanna-Tabor place
an employee outside the ministerial exception. See
Biel App. 10a–13a. In the court’s view, “[a]t most, only
one of the four Hosanna-Tabor considerations weighs
in St. James’s favor. No federal court of appeals has
applied the ministerial exception in a case that bears
so little resemblance to Hosanna-Tabor. We decline St.
James’s invitation to be the first.” Id. at 15a (citations
omitted). In Morrissey-Berru v. Our Lady of Guadalupe School, the Ninth Circuit applied this same
cramped view by denying the exception despite an express finding that the respondent had “significant
religious responsibilities as a teacher.” Guadalupe
App. 3a.
The Ninth Circuit went astray by reducing Hosanna-Tabor to its facts. Biel App. 15a. Leading
constitutional decisions stand for broad principles of
law, not fact-bound holdings. It is therefore not enough
to correct the Ninth Circuit’s specific errors. Preventing those errors from taking root in this
constitutionally vital area requires a standard to aid
courts in correctly determining when the ministerial
exception applies.
Identifying an appropriate legal standard for the
ministerial exception is fairly included in the question
presented: “Whether the Religion Clauses prevent civil
courts from adjudicating employment discrimination
claims brought by an employee against her religious
employer, where the employee carried out important
religious functions.” Guadalupe Pet. i. Resolving that

9
question implies the need for a controlling legal standard. See Kolstad v. Am. Dental Ass’n, 527 U.S. 526, 540
(1999) (concluding that “the proper legal standards for
imputing liability to an employer” were “intimately
bound up” with the question presented regarding the
availability of punitive damages under Title VII of the
Civil Rights Act).
II. An appropriate standard for the ministerial
exception should cover employees whose
work seriously affects a religious organization’s religious mission.
A. An appropriate standard must avoid religious discrimination by steering away
from an undue emphasis on religious titles, training, and status.
“The clearest command of the Establishment
Clause is that one religious denomination cannot be
officially preferred over another.” Larson v. Valente,
456 U.S. 228, 244 (1982). In devising a standard for
the ministerial exception, there is considerable risk of
“disadvantaging those religious groups whose beliefs,
practices, and membership are outside of the ‘mainstream’ or unpalatable to some.” Hosanna-Tabor, 565
U.S. at 197 (Thomas, J., concurring). Framing an appropriate standard for the ministerial exception must
avoid even subtle religious preferences.
Even the name of the doctrine itself—the ministerial exception—can be misleading. This crucial
protection of religious autonomy must include
Protestant clergy (“ministers”) and their analogues in
other faiths, but the exception cannot be so confined.
See id. at 198 (Alito, J., concurring).

10
Cheryl Perich—the teacher in Hosanna-Tabor—
was not the head of a congregation. Yet the Court had
no difficulty placing her within the ministerial exception, “given all the circumstances of her employment.”
Id. at 190 (majority opinion). Her religious title and
training, her acknowledged status within her religious
community, and the religious functions she performed
on the job—all these were undoubtedly relevant to
whether Perich came within the ministerial exception.
See id. at 190–92. But these features of Perich’s employment were significant because of a broader
principle. The central thrust of the ministerial exception is to prevent courts from “interfer[ing] with the
internal governance” of a religious organization by
preserving the “right to shape its own faith and mission through its appointments.” Id. at 188. Treating
the facts in Hosanna-Tabor as the elements of an inflexible test, as the court of appeals did, see Biel App.
12a; Guadalupe App. 2a–3a, implicitly discriminates
against religious employers and faith communities
whose beliefs, practices, and polity differ from the Lutheran school and its former teacher in HosannaTabor.
Consider The Church of Jesus Christ of Latter-day
Saints. It is led by a First Presidency (consisting of the
Church’s President and his two counselors), the
Quorum of the Twelve Apostles, and other full-time religious officers known as General Authorities. Their
work is supported by thousands of full-time employees
who assist in administering the affairs of the Church.
Full-time ecclesiastical leaders like the First Presidency plainly fall within the ministerial exception.
But many Church employees with crucial ecclesiastical duties might fall outside a narrow religiousfunctions test—to say nothing of the crabbed standard

11
adopted by the Ninth Circuit. These employees lack a
“formal religious title,” or even a title that reflects
“ministerial substance and training,” and they do not
hold themselves out (for employment purposes) as
ministers. See Guadalupe App. 2a (describing the ministerial exception “factors”). Nevertheless, such
employees are indispensable to the Church’s ecclesiastical, missionary, ceremonial, and ministering
functions. Three positions illustrate the point:


The Managing Director of the Church’s Priesthood and Family Department directly oversees,
under the direction of Church Apostles, the creation of religious curriculum; the translation of
Church scriptures; the coordination of youth
programs, special needs programs, and prison
programs; and the formulation of instructions
and guidelines for local ecclesiastical leaders.
Although this position carries no ecclesiastical
office and requires no special religious training,
it undoubtedly involves the performance of important religious functions. Yet the Ninth
Circuit’s test raises serious doubts whether the
person carrying out those functions qualifies as
a “minister.” See id. 3a (“an employee’s duties
alone are not dispositive under Hosanna-Tabor’s framework”).



Likewise, the Managing Director for the
Church’s Missionary Department, who works
directly with Church Apostles in assigning, organizing, and overseeing tens of thousands of
Church missionaries around the globe, performs
important religious functions.



So too, the Managing Director of the Church’s
Temple Department, again working with

12
Church Apostles, is responsible for overseeing
Church temples, the faith’s most sacred places
of worship, and the sacred religious rites and
ceremonies that occur there.
In spite of performing religious duties of paramount importance to the faith, these Church
employees would be treated with no greater constitutional sensitivity than if they were a janitor or
grounds-keeper under the Ninth Circuit’s fact-bound
and discriminatory test.
An appropriate standard for the ministerial exception must acknowledge that “[d]ifferent religions will
have different views on exactly what qualifies as an
important religious position.” Hosanna-Tabor, 565
U.S. at 200 (Alito, J., concurring). Any such standard
should protect the broad diversity of religious beliefs,
practices, and internal governance that characterize
American religions. Religious titles and training, ecclesiastical offices, and religious functions are
relevant, of course, and each may justify applying the
ministerial exception. Properly understood, these facts
are different forms of evidence that an employee performs important religious functions. It is immaterial
that an employer cannot point to every kind of evidence that influenced the decision in Hosanna-Tabor.
The absence of a religious title is no reason to deny
the ministerial exception. Take the position of “lay
principal,” for instance. Acknowledging that the plaintiff’s “formal title was not inherently religious,” the
Second Circuit still concluded that the ministerial exception applies. Fratello v. Archdiocese of N.Y., 863
F.3d 190, 192 (2d Cir. 2017). “[T]he record clearly establishes that she held herself out as a spiritual leader
of the school, and that she performed many significant

13
religious functions to advance its religious mission.
She was thus a ‘minister’ for purposes of the exception.” Ibid.
Much the same might be said for applying the ministerial exception to employees who lack formal
religious training, ecclesiastical office, or a recognized
religious status within their faith community. As Fratello illustrates, performing an important religious
function by itself may justify the ministerial exception.
Losing the ability to decide who carries out important
religious functions would threaten a religious organization’s right “to shape its own faith and mission
through its appointments” and deny it the freedom
from “government involvement in such ecclesiastical
decisions.” Hosanna-Tabor, 565 U.S. at 188–89.
B. A religious organization would lose its
constitutional autonomy unless it can decide who will perform important religious
functions.
The Ninth Circuit’s fact-bound approach also failed
to account for the broader religious autonomy concerns
animating the ministerial exception, missing the First
Amendment forest for Hosanna-Tabor’s trees. Hosanna-Tabor held that religious groups must be free to
“choos[e] who will preach their beliefs, teach their
faith, and carry out their mission.” Id. at 196. Justices
Alito and Kagan added that religious organizations
should be “free to choose the personnel who are essential to the performance of [religious] functions.” Id. at
199 (Alito, J., concurring). The ministerial exception
should apply when an employee “leads a religious organization, conducts worship services or important
religious ceremonies or rituals, or serves as a messenger or teacher.” Ibid. Permitting such employees to

14
bring employment discrimination claims against a religious organization violates the First Amendment by
“interfer[ing] with the internal governance of the
church, depriving the church of control over the selection of those who will personify its beliefs.” Id. at 188
(majority opinion). For that reason, the ministerial exception covers employees who perform “important
religious functions.” Id. at 192. Justice Alito’s concurrence suggests at least three categories of employees
that fit this description—and we suggest a fourth.2
1. A religious organization must be free to select
and control its leaders without government interference. See id. at 196 (“[A] church must be free to choose
those who will guide it on its way” and “carry out [its]
mission”); see also id. at 200 (Alito, J., concurring)
(identifying “those who serve in positions of leadership” as having functions of “substantial religious
importance”). For instance, the ministerial exception
applies to a disgruntled pastor’s suit against his former church. Lee v. Sixth Mount Zion Baptist Church
of Pittsburgh, 903 F.3d 113, 120 (3d Cir. 2018) (“[T]he
ministerial exception precludes, under the Free Exercise Clause, judicial action or application of state or
federal law limiting a religious organization’s choice of
spiritual messenger.”); accord Conlon v. InterVarsity
Christian Fellowship, 777 F.3d 829, 835–36 (6th Cir.
2015) (dismissing a gender-discrimination suit because “the historical practice has always been that the
2 Petitioners discern four categories of employees who perform
important religious functions, see Pet. Br. 42–43, whereas we
combine worship with ritual or ceremony. In any event, we wholeheartedly agree with petitioners that the ministerial exception
should cover the employees described by Justices Alito and Kagan
in their Hosanna-Tabor concurrence. See 565 U.S. at 200–01
(Alito, J., concurring).

15
government cannot dictate to a religious organization
who its spiritual leaders would be”).
2. But the ministerial exception is not “limited
to the head of a religious congregation.” Hosanna-Tabor, 565 U.S. at 190. Cheryl Perich—the teacher in
Hosanna-Tabor—was an elementary school teacher.
As the Court discerned, a religious organization must
be able to decide who will be entrusted with teaching
religious belief, doctrine, or practice. Id. at 196 (ministerial exception includes employees who “teach [the]
faith”); accord id. at 200 (Alito, J., concurring) (stressing the “substantial religious importance” of “teaching
and conveying the tenets of the faith to the next generation”).
Conveying the faith to children is a particularly important religious function. See id. at 192 (majority
opinion) (noting the importance of “transmitting
the * * * faith to the next generation”). The Massachusetts high court affirmed this understanding in Temple
Emanuel of Newton v. Massachusetts Commission
Against Discrimination, 975 N.E.2d 433 (Mass. 2012).
There, the court held that a part-time teacher could
not sue a Jewish school for age discrimination. “Where
a school’s sole mission is to serve as a religious school,
the State should not intrude on a religious group’s decision as to who should (and should not) teach its
religion to the children of its members.” Id. at 443. For
similar reasons, the Seventh Circuit applied the ministerial exception to a lawsuit brought by a former
teacher who was assigned to “convey religious teachings to her students.” Grussgott v. Milwaukee Jewish
Day School, Inc., 882 F.3d 655, 660–61 (7th Cir. 2018).
Petitioners correctly argue that the ministerial exception covers a teacher at a Catholic parochial school

16
whose employment responsibilities include teaching
children the Catholic faith. Guadalupe Pet. 7–8 (Respondent “taught daily religion classes every year of
her employment,” including “through prayer, worship,
and reading of Scripture”); Biel Pet. 1–2 (Respondent
testified that “she spent 200 minutes each week teaching her students about the Catholic faith”). The
ministerial exception applies even if petitioners cannot
point to a religious title or office, extensive religious
training, or any of the other incidental elements of Hosanna-Tabor. “What matters” is that these schools
sincerely believe that “the religious function that respondent[s] performed made it essential” for the
schools to decide who should teach the Catholic faith
to children. 565 U.S. at 206 (Alito, J., concurring).
“This conclusion rests * * * on [the employee’s] functional status as the type of employee that a [religious
school] must be free to appoint or dismiss in order to
exercise the religious liberty that the First Amendment guarantees.” Ibid.
3. A religious organization also must be free to
decide who is responsible for conducting worship services or performing religious ceremonies or rituals. See
id. at 189 (majority opinion) (acknowledging the right
of religious organizations to select and control those
who “minister to the faithful”); accord id. at 200 (Alito,
J., concurring) (describing the “substantial religious
importance” of “perform[ing] important functions in
worship services and * * * religious ceremonies and rituals”). Recognizing the importance of such religious
functions, the Second Circuit dismissed a discrimination claim brought by a chaplain against a Methodist
hospital. He had “participate[d] in coordinating and
conducting chapel services,” including “holiday services, employee memorial services, [and] Sunday
worship services.” Penn v. N.Y. Methodist Hosp., 884

17
F.3d 416, 418, 420 (2d Cir. 2018); accord Kirby v. Lexington Theological Seminary, 426 S.W.3d 597, 612 (Ky.
2014) (dismissing a claim by a professor at a theological seminary because his responsibilities included
“read[ing] scripture and serv[ing] at the communion
table during [a] Thanksgiving service” and “presiding
over [multiple] worship service[s]”).
4. And a religious organization must be free to
decide who is responsible for music during a worship
service or other religious event. Although employees
who select, conduct, or perform music for such events
directly participate in religious activities, lower courts
have sometimes struggled with whether the ministerial exception applies to church musicians. Some
courts recognize the religious importance of organists
and music directors. See, e.g., EEOC v. Roman Catholic Diocese of Raleigh, N.C., 213 F.3d 795, 802 (4th Cir.
2000) (“[M]usic is a vital means of expressing and celebrating those beliefs which a religious community
holds most sacred.”); Sterlinski v. Catholic Bishop of
Chi., 934 F.3d 568, 571–72 (7th Cir. 2019) (a church
organist comes within the ministerial exception); Cannata v. Catholic Diocese of Austin, 700 F.3d 169, 180
(5th Cir. 2012) (a church’s music director is covered by
the ministerial exception). Other courts have resisted
applying the exception to employees responsible for
music during a worship service or other religious
event. See, e.g., Archdiocese of Wash. v. Moersen, 925
A.2d 659, 660 (Md. 2007) (holding that the ministerial
exception did not apply to a Catholic church organist);
Collette v. Archdiocese of Chi., 200 F. Supp. 3d 730, 735
(N.D. Ill. 2016) (declining to dismiss a claim brought
against a church by its former “Music Director and Director of Worship”). Whether a church musician is
covered by the ministerial exception should depend on

18
the importance of music for the church’s religious mission—not on whether a court accepts the importance
of music for religious worship, generally.
These four types of employees—leaders, teachers,
preachers, and musicians—fall within the ministerial
exception because they perform important religious
functions. But these categories are not exhaustive. The
First Amendment guarantees religious autonomy for
every faith, not just for faiths whose beliefs and practices are familiar or popular. Confining the ministerial
exception to religious organizations that follow the
patterns of well-known faith communities would “risk
disadvantaging those religious groups whose beliefs,
practices, and membership are outside of the ‘mainstream’ or unpalatable to some.” Hosanna-Tabor, 565
U.S. at 197 (Thomas, J., concurring). An appropriate
standard for the ministerial exception should leave
ample space for unfamiliar and new faith traditions to
find constitutional shelter when an employee performs
a religious function that is important for that faith.
Any less generous approach would violate the Establishment Clause by implying an official preference for
some religious groups over others. See Larson, 456
U.S. at 244.
C. A religious organization would lose its constitutional autonomy unless it can decide
who will perform functions that are important to its religious mission.
Hosanna-Tabor had no occasion to consider
whether the ministerial exception applies to an employee who performs functions that are secular in
appearance yet important for an organization’s religious mission. But it left open that possibility. The
main point of the ministerial exception is to preserve

19
religious autonomy. To accomplish that, the exception
bars “government interference with an internal church
decision that affects the faith and mission of the
church [or other religious organization].” Hosanna-Tabor, 565 U.S. at 190. The combined force of the Religion
Clauses guarantee religious groups the right to decide
who will “carry out their mission.” Id. at 196.
Many religious organizations depend on functionaries to carry out tasks that are important to the
organization’s religious mission. Hosanna-Tabor was
correct that the ministerial exception covers “heads of
congregations” even though they perform seemingly
secular tasks. Id. at 193. But some activities are vital
to a religious organization’s religious mission—including activities that Hosanna-Tabor regarded as
nonreligious like “helping to manage the congregation’s finances, supervising purely secular personnel,
and overseeing the upkeep of facilities.” Ibid. These
critical assignments often fall to employees with anodyne titles, such as the Special Assistant to the
Archbishop, Managing Director of the Curriculum Department, or Head of Church Security. Despite
appearances, deciding who should carry out these responsibilities is “an internal church decision that
affects the faith and mission of the church itself.” Id.
at 190. Of course, not all courts see it that way. See
Patsakis v. Greek Orthodox Archdiocese of Am., 339 F.
Supp. 2d 689, 696 (W.D. Pa. 2004) (“[D]espite the fact
that Patsakis was heavily involved in the administration of the Church as Administrative Vicar, there is no
indication that she was ever involved in spiritual or
pastoral matters.”).
We urge an understanding of the ministerial exception that finds support in an historical incident

20
recounted in Hosanna-Tabor. When Bishop Carroll invited then-Secretary of State James Madison to
suggest “who should be appointed to direct the affairs
of the Catholic Church in the territory newly acquired
by the Louisiana Purchase,” Madison demurred. Hosanna-Tabor, 565 U.S. at 184. He responded that “the
selection of church ‘functionaries’ was an ‘entirely ecclesiastical’ matter left to the Church’s own judgment.”
Ibid. (quoting Letter from James Madison to Bishop
Carroll (Nov. 20, 1806), reprinted in 20 Records of the
American Catholic Historical Society 63 (1909)). And
Madison explained that he could not opine on the “selection of ecclesiastical individuals” because of the
“scrupulous policy of the Constitution in guarding
against a political interference with religious affairs.”
Ibid. (quoting 20 Records at 64, 63).
Madison’s letter suggests a broad interpretation of
the constitutional bar on governmental interference.
He referred to the persons that Bishop Carroll might
select as “functionaries” and “ecclesiastical individuals,” not as “priests,” “ministers,” or “clergy.” 20
Records at 63, 64 (emphasis added). These terms imply
that Madison resisted interfering in the choice of anyone who, regardless of employment responsibilities,
would “direct the affairs” of the church. 565 U.S. at
184.
Madison’s caution should inform a correct understanding of the ministerial exception today.
Functionaries who perform functions genuinely important to a religious organization’s religious mission
belong within the exception because American society
is “characterized by religious pluralism and pervasive
regulation.” City of Boerne v. Flores, 521 U.S. 507, 564
(1997) (O’Connor, J., dissenting). Both phenomena influence the kinds of employees that a religious

21
organization needs to pursue its religious mission effectively.
Religious pluralism means that churches, religious
schools, charities, and other religious entities have internal organizations as varied as the religious beliefs
they profess. See Hosanna-Tabor, 565 U.S. at 197
(Thomas, J., concurring). Large and hierarchical religious organizations may assign irreplaceable
responsibilities to employees with non-religious job titles. Assignments can be driven by religious belief,
practice, and polity. Where some faith communities
rely on a professional priesthood with ecclesiastical titles and corresponding ordinations for employment
responsibilities vital to their religious mission, other
faiths rely on a lay priesthood that lacks these outward
vestiges of religiosity. Other religious groups determine which employees fill such assignments by
practical considerations best suited to advance their
particular religious missions. But in substance, these
employees hold significant power to shape or distort an
organization’s religious mission.
Pervasive regulation means that religious organizations face obstacles that the founding generation
could hardly imagine. To overcome those obstacles, religious organizations rely on functionaries to assist in
navigating complex legal and regulatory requirements
that can thwart an organization’s religious mission—
and to do so in a manner consistent with that religious
mission. Consider the position of inside general counsel for a church. From the church’s perspective, legal
guidance would be incomplete and potentially damaging to the church’s religious mission without a deep
understanding of its faith and polity. Functionaries
who assist a religious organization in complying with
the thicket of modern laws and regulations can be no

22
less vital to religious autonomy than employees with
overt religious functions. Given that reality, the ministerial exception should include employees who are
important for a religious organization’s ability to faithfully carry out its religious mission in today’s
regulatory landscape.
Both religious pluralism and pervasive regulation
heavily influence which employees religious organizations need to “carry out their mission.” Id. at 196
(majority opinion). Not all such employees perform
overtly religious functions. Yet without the ability to
decide who fills key posts with the power to shape or
distort its religious mission, a religious organization
would lose the autonomy guaranteed by the First
Amendment. The ministerial exception should reach
far enough to prevent that result.
The principle that religious autonomy ought to be
protected even when an employee’s duties are not
overtly religious is also consistent with related areas
of federal law.
Labor law has been marked by the courts’ longstanding unwillingness to police the boundary between religious and secular employment activities.
Catholic Bishop of Chicago, 440 U.S. at 490 held that
NLRB’s attempt to compel Catholic high schools to engage in collective bargaining with respect to lay
teachers raised “serious First Amendment questions.”
Id. at 504. The Court noted that charging a religious
school with unfair labor practices “will necessarily involve inquiry into the good faith of the position
asserted by the clergy-administrators and its relationship to the school’s religious mission.” Id. at 502. Even
without such direct conflicts, the Court discerned constitutional problems in the administrative process

23
itself. “It is not only the conclusions that may be
reached by the Board which may impinge on rights
guaranteed by the Religion Clauses, but also the very
process of inquiry leading to findings and conclusions.”
Ibid.
Only last month, the D.C. Circuit applied these
principles in holding that the NLRB could not order a
Catholic university to bargain with a union representing adjunct faculty. Duquesne Univ. of the Holy Spirit
v. NLRB, No. 18-1063, 2020 WL 425053, at *1 (D.C.
Cir. Jan. 28, 2020). Citing Catholic Bishop, the court
of appeals rejected the invitation to identify when the
Board has jurisdiction to order collective bargaining
based on whether a faculty member provides religious
or secular instruction. “Because a school’s religious
mission may be ‘intertwined’ with even ‘secular instruction,’ the [Catholic Bishop] Court did not
differentiate between teachers who play religious roles
and those who play secular roles, but rather held that
the Board lacked jurisdiction over all teachers at
church-operated schools.” Id. at *7 (quoting 440 U.S.
at 501, 507); accord Universidad Central de Bayamon
v. NLRB, 793 F.2d 383, 402–03 (1st Cir. 1985) (evenly
divided en banc) (Breyer, J.) (trying to parse religious
and secular instruction at a religious university
“would itself entangle the Board in religious affairs”).
A similar resistance to adjudicating the difference
between religious and secular employment activities
characterizes Title VII of the Civil Rights Act. It contains
an
exemption
authorizing
religious
organizations to restrict employment to “individuals of
a particular religion,” regardless whether the employee’s activities are religious or secular. 42 U.S.C.
2000e–1(a). In 1972, Congress amended this provision
to remove Title VII’s original requirement to prove

24
that an employee was engaged in religious activities.
See Corp. of the Presiding Bishop of The Church of Jesus Christ of Latter-day Saints v. Amos, 483 U.S. 327,
335–36 (1987). Experience taught that this restriction
imposed “a significant burden on a religious organization to require it, on pain of substantial liability, to
predict which of its activities a secular court will consider religious.” Id. at 336. As the Court perceived,
“[t]he line [between religious and secular activities] is
hardly a bright one, and an organization might understandably be concerned that a judge would not
understand its religious tenets and sense of mission.”
Ibid. Even the prospect of judicial intrusion would chill
an organization’s free exercise of religion. See ibid. In
this way, the threat of litigation could distort “the [religious] community’s process of self-definition.” Id. at
342–43 (Brennan, J., concurring).
Catholic Bishop and Amos suggest that confining
the ministerial exception to employees who perform
important religious functions would run similar risks.
Employment activities do not come labeled as “religious” or “secular.” Id. at 343 (“What makes the
application of a religious-secular distinction difficult is
that the character of an activity is not self-evident.”).
Adhering to a rigid distinction between religious and
nonreligious employment functions would require
courts to second-guess the religiosity of particular positions within a religious organization. And that
inquiry would to an extent deprive religious employers
of the constitutionally guaranteed autonomy to govern
their own ecclesiastical affairs.
These risks to religious freedom can be avoided by
ensuring that the ministerial exception covers more
than employees who perform important religious functions. The exception should also encompass employees

25
who perform functions important for a religious organization’s religious mission. Importance in this context
depends on an employee’s ability to affect a religious
group’s faith and religious mission. See Hosanna-Tabor, 565 U.S. at 190.
Employees who hold senior leadership positions often carry out functions that are important to an
organization’s religious mission. For instance, the Seventh Circuit properly applied the ministerial exception
to a woman who served as “Hispanic Communications
Director” for the Archdiocese of Chicago. Alicea-Hernandez v. Catholic Bishop of Chi., 320 F.3d 698, 700
(7th Cir. 2003). “Her official duties included composing
media releases and correspondence as well as developing a working relationship with various constituencies
of the Hispanic community and composing articles to
be published in the Church media.” Id. at 703–04. Although many of these job duties are not overtly
religious, they made her “responsible for conveying the
message of [the church] to the public as a whole.” Id.
at 704. The court had no difficulty concluding that the
exception applies. Not only did Alicea-Hernandez
“serve[ ] as a liaison between the Church and the community to whom it directed its message,” but she was
“integral in shaping the message that the Church presented to the Hispanic community.” Ibid.
Since few employees occupy a senior leadership
role, including them within the ministerial exception
avoids giving religious organizations “carte blanche to
disregard antidiscrimination laws.” Biel App. 16a.
Another limiting principle on the scope of the ministerial exception is the exercise of substantial
discretion, meaning the authority to make “unilateral,

26
important decisions” that affect the employer’s religious mission. Cannata, 700 F.3d at 178. Employees
with substantial discretion often carry out functions
that are crucial to an organization’s religious mission.
Consider the head of a church’s security detail charged
with protecting the physical safety of a church’s senior
leaders. Keeping senior clergy alive is obviously indispensable to a church’s religious mission. The church
has a compelling need for full autonomy in deciding
who will perform those responsibilities, even if a court
might deem them primarily secular.
In determining when the ministerial exception covers an employee who does not perform important
religious functions, the focus should remain squarely
on the central purposes of the exception. It “protects a
religious group’s right to shape its own faith and mission through its appointments” and guards a religious
organization from “government involvement in such
ecclesiastical decisions.” Hosanna-Tabor, 565 U.S. at
188–89.
Concentrating on these purposes can assist a court
in discerning when the ministerial exception applies to
employees with responsibilities that may strike a court
as unusual. In Puri v. Khalsa, 844 F.3d 1152, 1159
(9th Cir. 2017), the Ninth Circuit declined to apply the
ministerial exception to the “the governing boards of
church-affiliated organizations” whose members involved “responsibilities [that were] largely secular.”
The court acknowledged that “the exception extends to
‘the Church’s choice of its hierarchy’ when that choice
implicates ‘a religious group’s right to shape its own
faith and mission.’” Ibid. (quoting Hosanna-Tabor, 565
U.S. at 188). But the Ninth Circuit declined to decide
whether the ministerial exception applies to nonprofit

27
corporate board members, citing insufficient evidence.
See Puri, 844 F.3d at 1162.
A close reading of Puri suggests that the court of
appeals got tangled up in the wrong issues since there
was ample evidence supporting the ministerial exception. One of the nonprofit corporations was the
“successor legal organization” to a parent religious corporation in the sole control of a religious leader whose
death prompted the litigation. Id. at 1155. Membership on the board of this successor corporation entailed
acting as “guardian” of the parent company’s assets.
Ibid. And to top it off, only those “currently qualified
as a minister of Sikh Dharma” could act as directors.
Ibid. One would think that an employment position
with control over a religious organization’s assets, for
which only a minister could qualify, cries out for the
ministerial exception. Yet the Ninth Circuit would not
apply the exception out of concern that the nonprofit
corporation was not a church and the board memberships did not include “ecclesiastical duties or
privileges.” Id. at 1160.
Recognizing that the ministerial exception applies
to employees who carry out functions important for a
religious organization’s religious mission would clarify
situations like the contest over board membership in
Puri. More importantly, extending the exception to
employees with senior leadership roles or substantial
discretion would ensure that the exception fully satisfies its constitutional purposes—without going
further.

28
III. We propose a broad and simple standard for
the ministerial exception.
In sum, the central purpose of the ministerial exception is to secure religious autonomy. Both Religion
Clauses guarantee religious organizations the freedom
to shape their faith and mission through their appointments. The Ninth Circuit’s decisions demonstrate the
infirmities of using a totality-of-the circumstances test
to determine when the ministerial exception applies.
The Court should adopt a more determinate standard.
To avoid discriminating (however unintentionally)
against religious groups that are unfamiliar, new,
small, or unpopular, an appropriate judicial standard
should avoid assuming a model rooted in a particular
faith tradition. An appropriate standard should apply
the ministerial exception whenever an employee performs important religious functions or functions that
are important for the organization’s religious mission,
as evinced by the exercise of substantial discretion or
a senior leadership role.
From these considerations, we propose the following standard:
The ministerial exception applies when a religious organization demonstrates that its religious
autonomy depends on controlling the selection,
discipline, or removal of (1) an employee who performs important religious functions or (2) an
employee whose substantial discretion or senior
leadership role makes the employee important for
carrying out the organization’s religious mission.
Each element warrants a brief explanation.

29
First, because the ministerial exception is an affirmative defense, a religious organization bears the
burden of proof. See Hosanna-Tabor, 565 U.S. at 195
n.4 (holding that the ministerial exception “operates
as an affirmative defense to an otherwise cognizable
claim”). It is the religious employer that must “demonstrate” that the ministerial exception covers an
employee who is challenging an employment decision.
Second, the standard requires a religious organization to show that maintaining its religious autonomy
demands control over the disputed employment position. See id. at 188 (affirming a religious employer’s
“right to shape its own faith and mission through its
appointments.”). The numbered clauses of the standard offer alternative means for the employer to
establish that connection.
Third, a religious organization may demonstrate
the need for control by showing that the person occupying that position performs important religious
functions. Such employees include “those who serve in
positions of leadership, those who perform important
functions in worship services and in the performance
of religious ceremonies and rituals, and those who are
entrusted with teaching and conveying the tenets of
the faith to the next generation.” Id. at 200 (Alito, J.,
concurring). Probing an employer’s assertion that an
employee carries out an important religious function
would seem to carry the same constitutional objections
as quizzing a religious believer about the centrality of
an asserted religious belief. See Emp’t Div., Dep’t of
Human Res. of Or. v. Smith, 494 U.S. 872, 887 (1990)
(“Repeatedly and in many different contexts, we have
warned that courts must not presume to determine the
place of a particular belief in a religion or the plausibility of a religious claim.”). Hence, a religious

30
organization’s assertion that an employment position
holds importance for an employer’s religious mission
ought to be credited if pressed honestly. See Thomas v.
Review Bd. of the Ind. Emp’t Sec. Div., 450 U.S. 707,
716 (1981) (a court reviewing a free exercise claim has
the “narrow function” of determining whether the religious objector held “an honest conviction” precluding
compliance).
Fourth, a religious organization can also demonstrate the need to control a particular employment
position by demonstrating that the position entails
“functions important for the employer’s religious mission.” To qualify for the ministerial exception under
this heading, an employer must show both that the employee’s job functions furthered the religious mission
and that those functions were important for that mission. To establish importance, an employer can show
that the job position entailed the exercise of substantial discretion or senior leadership responsibilities.
Together, these elements compose a manageable
standard that directs courts toward the right questions under the First Amendment. Instead of limiting
Hosanna-Tabor to its facts, this standard would vindicate the First Amendment’s guarantee of autonomy for
churches and other religious organizations. At the
same time, the standard would incorporate limiting
principles designed to prevent the ministerial exception from denying legal protections for rank-and-file
employees whose work does not threaten a religious
organization’s ability to govern itself.

31
CONCLUSION
The Court should adopt the standard we propose
and reverse in 19-267 and 19-348.
Respectfully submitted,
ALEXANDER DUSHKU
R. SHAWN GUNNARSON
Counsel of Record
JAMES C. PHILLIPS
KIRTON | MCCONKIE
36 South State Street
Suite 1900
Salt Lake City, Utah 84111
(801) 328-3600
sgunnarson@kmclaw.com
Counsel for Amici Curiae
February 10, 2020

